    DEPARTMENT OF HOMELAND SECURITY
      Office of Inspector General

            Federal Protective Service Needs 

             To Improve its Oversight of the 

                Contract Guard Program 





                  Office of Audits

OIG-07-05                             October 2006
                                                                               Office of Inspector General

                                                                               U.S. Department of Homeland Security
                                                                               Washington, DC 20528




                                      October 30, 2006

                                               Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report assesses the Federal Protective Service’s (FPS) contract guard monitoring efforts within
its National Capital Region (NCR) and compliance with provisions of the Prompt Payment Act
nationwide. It is based on interviews with employees and officials from the FPS Headquarters,
NCR, U.S. Immigration and Customs Enforcement, and contract guard companies, direct
observations at buildings in the NCR, and reviews of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                               Richard L. Skinner 

                                               Inspector General 





                                  Federal Protective Service Needs to Improve its Oversight of the 

                                                     Contract Guard Program

Table of Contents/Abbreviations
  Executive Summary ......................................................................................................................... 1 


  Background ...................................................................................................................................... 2 


  Results of Audit ............................................................................................................................... 5 


       Contractor Deployment of Qualified Contract Guards.............................................................. 5 

          Recommendations.............................................................................................................. 14 

          Management Comments and OIG Analysis ...................................................................... 15 


       Payment of Contract Guard Invoices....................................................................................... 16 

          Recommendations.............................................................................................................. 22 

          Management Comments and OIG Analysis ...................................................................... 22 


 Appendices
  Appendix A:             Purpose, Scope, and Methodology. ..................................................................... 24 

  Appendix B:             Management’s Response to the Draft Report...................................................... 27 

  Appendix C:             Contract Guard Recertification Requirements .................................................... 32 

  Appendix D:             Summary of OIG Review of Expired Certifications ........................................... 33 

  Appendix E:             Major Contributors to this Report ....................................................................... 34 

  Appendix F:             Report Distribution.............................................................................................. 35 


 Abbreviations
  CERTS                    Contract Guard Employment Requirements Tracking System

  COR                      Contracting Officer’s Representative   

  CPR                      Cardiopulmonary Resuscitation      

  DFC                      Dallas Finance Center 

  DHS                      Department of Homeland Security 

  FFMS                     Federal Financial Management System 

  FPS                      Federal Protective Service 

  GSA                      General Services Administration 

  ICE                      Immigration and Customs Enforcement 

  INS                      Immigration and Naturalization Service 

  IRS                      Internal Revenue Service 

  NCR                      National Capital Region

  OFM                      Office of Financial Management 

  OIG                      Office of Inspector General 

  PRISM                    Procurement Request Information System Management 

  QAS                      Quality Assurance Specialist 




                                               Federal Protective Service Needs to Improve its Oversight of the 

                                                                  Contract Guard Program

                                                                                        Audit
OIG                                                                                     Report
Department of Homeland Security
Office of Inspector General

Executive Summary
                This report describes the results of our audit of the Federal Protective Service
                (FPS) contract guard program within FPS’ Region 11, the National Capitol
                Region (NCR). Our objectives were to determine whether (1) effective
                controls are in place to ensure qualified contract guards are deployed at
                federal buildings; (2) FPS’ Region 11 effectively monitors contractor
                performance and compliance with contract provisions; and 3) contract guard
                company invoices were paid timely according to the Prompt Payment Act.

                We concluded that FPS’ Region 11 is not consistently deploying qualified and
                certified contract guards. Contract guards were on post without current
                suitability determinations or with expired certifications. Also, security
                contractors were not performing their security services according to the terms
                and conditions of their contracts. These deficiencies occurred because FPS
                personnel were not effectively monitoring the contract guard program.

                In addition, FPS is not paying invoices timely for its contract guard services
                nationwide and is in violation of the Prompt Payment Act. Of the 25,557
                invoices paid from October 1, 2004, to November 21, 2005, only 12 percent
                were paid within 30 days, as required by the Prompt Payment Act. This
                condition occurred, in part, because the FPS transition from the General
                Services Administration’s (GSA) Financial Management System to the
                U. S. Immigration and Customs Enforcement’s (ICE) Federal Financial
                Management System was inadequately planned. As a result, FPS paid over
                $1.2 million in interest to guard companies that are contracted by FPS to
                protect federal buildings for late payments made during this time period.

                We are making four recommendations to the Regional Director of the NCR
                (Region 11), and one recommendation to the Director of FPS to strengthen
                controls over its contract guard program. Management concurred with all
                recommendations and, based on actions taken, we have closed three and
                consider two open pending planned corrective action. The Assistant
                Secretary’s comments to our draft report, dated August 8, 2006, were



                           Federal Protective Service Needs To Improve Its Oversight of the
                                            Contract Guard Program

                                                     Page 1
                          incorporated into the body of this report, as appropriate, and are included in
                          their entirety in Appendix B.

          Background
                          FPS was established in 1971 as the uniformed protection force of the General
                          Services Administration for government-occupied facilities. As part of its
                          overall strategy to ensure the physical safety of government employees and
                          visitors, FPS uses contract guards to deter the commission of crime in and
                          around federal buildings. The guards are deployed at roving and fixed posts,
                          where they often operate security-screening devices such as magnetometers
                          and x-ray machines. FPS guards play a crucial and highly visible role in the
                          FPS mission, often the first, and sometimes the only, contact visitors have
                          with FPS at a facility.

                          Under the Homeland Security Act of 2002,1 the Department of Homeland
                          Security (DHS) became responsible for protecting the buildings, grounds, and
                          property owned, occupied, or secured by the federal government under GSA’s
                          jurisdiction. In addition to GSA facilities, the Act also provides FPS with the
                          authority to protect properties held by DHS components that were not under
                          GSA jurisdiction. Accordingly, FPS was moved from GSA, Public Building
                          Services, to DHS, effective March 1, 2003. Within DHS, FPS is part of the
                          Immigration and Customs Enforcement (ICE) Directorate.

                          Contract guard services represent the single largest item in the FPS operating
                          budget, with an estimated FY 2006 budget of $487 million. As a result of the
                          Oklahoma City bombing in 1995, the contract guard workforce more than
                          doubled and now numbers around 15,000. FPS has become increasingly
                          reliant on its contract guard force, having less than 1,000 uniformed FPS
                          officers nationwide.

                          FPS operations are divided into 11 Regions, of which the NCR is the largest.
                          The NCR is further subdivided into three districts (Central, Maryland, and
                          Virginia), with each headed by a District Director. In January 2006, a
                          Contract Security Program Manager was appointed within the NCR to oversee
                          the administration of the contract security guard program and act as the liaison
                          between the Contracting Officer, Contract Specialists, contractors, Quality
                          Assurance Specialists (QASs), and tenant agencies.



1
    Public Law 107-296.




                                     Federal Protective Service Needs To Improve its Oversight of the
                                                      Contract Guard Program

                                                               Page 2
                            The NCR contract guard program consists of 54 guard service contracts that
                            provide approximately 5,700 guards to protect 125 facilities. Under these
                            contracts, FPS issues task orders containing detailed terms and conditions
                            under which the guard services are to be provided, such as the buildings
                            requiring protection, specific post locations, the hours and days of the week
                            each post is to be staffed, whether guards are armed, and the number of guards
                            at each post.

                            Under contract provisions with FPS, guard contractors must ensure that their
                            guards are qualified by undergoing background suitability checks, and possess
                            the necessary licenses, certificates, and permits. The guards also are required
                            to undergo training and pass an FPS-administered written examination.2 In
                            addition, guards must comply with performance requirements in the contract
                            that address items such as the guard’s appearance, work hours, supervision,
                            equipment, and record keeping.

                            While the contractor has the primary responsibility for ensuring that all
                            contract provisions and requirements are met, FPS is required to actively
                            monitor and verify contractor performance. NCR’s 12 QASs are responsible
                            for the day-to-day inspection and monitoring of the contractors’ work. The
                            role of the QAS is critical to monitoring contract guard performance, as they
                            are the primary NCR personnel on-site who can verify compliance with
                            contract provisions and requirements. Specifically, QASs are responsible for:

                            • 	 Inspecting work to ensure compliance with the contract statement of work
                                requirements.
                            • 	 Documenting the results of all inspections conducted through written
                                inspection reports.
                            • 	 Ensuring defects or omissions are corrected.
                            • 	 Identifying areas of nonperformance by the contractor to the NCR
                                Contracting Officer and Contracting Officer’s Representative (COR) that
                                may result in deductions from contract payment or other contractual
                                remedies being taken.
                            • 	 Conferring with representatives of the contractor regarding problems
                                encountered in the performance of the work, and generally assisting the
                                COR in carrying out the duties.




2
    For a complete listing of guard requirements, see Appendix C.




                                          Federal Protective Service Needs To Improve its Oversight of the
                                                           Contract Guard Program

                                                                    Page 3
                         Previous GSA OIG reports3 have noted numerous deficiencies with both
                         guard qualifications as well as FPS management of guard contracts:

                         •   Guards on postt wiith
                                                 hout valid
                                                          d background suitaabiliity dettermiinatiions;;
                         •   Guards lacking training to perform their duties;
                         •   Armedd guards on post witthout valid
                                                                d firrearrm qualifficaatio
                                                                                         ons;
                         •   Guards wiith
                                        hout weaapons staatio
                                                            oned at armed d postss;
                         •   Inconsistent oversight of guard operations and contracts; and
                         •   Inad
                                dequatee postt orders.

                         During the course of our review, FPS personnel pointed out that numerous
                         contract guard companies have complained that they were not being paid for
                         services rendered in a timely manner by FPS. FPS personnel advised us that
                         FPSS faiilure to pay co
                                               ontracttor invoicces on tim
                                                                         me, acccordin
                                                                                     ng to the provisiions of
                         th
                          he Prrompt Paym  ment Act,, is costtin
                                                               ng th
                                                                   he governmeent in
                                                                                   n excesss of a miilliion
                         dollars in interest, and placing contractors, the services they provide to protect
                         federal buildings, and employees at risk. Accordingly, wee expanded the scope
                         of our audit to address this issue on a nationwide basis, as it was clear that this
                         was a probleem th hroughout FP  PS, not just in th
                                                                          he NCR.




3
 “Audit of the Federal Protective Service’s Contract Guard Program,” Report Number A995175/P/2/R00010, March 28,
2000; and, “Follow-Up Review of the Federal Protective Service’s Contract Guard Program,” Report Number
A020092/P/2/R02016, August 29, 2002.




                                     Federal Protective Service Needs To Improve its Oversight of the
                                                      Contract Guard Program

                                                               Page 4
Results of Audit
           Contractor Deployment of Qualified Contract Guards
                             The security of federal employees, facilities, and visitors may be at risk
                             because NCR contractors are not consistently deploying qualified and
                             certified contract guards. Contract guards had expired suitability
                             determinations (background checks) as well as other expired certifications.
                             Also, contract guards were not performing their security services according to
                             contract provisions. These deficiencies occurred because the NCR is not
                             consistently and actively monitoring contract guard contracts. NCR does not
                             have sufficient QAS and Contract Section resources to supervise QAS
                             activities, and does not have the systems to track inspection reports and
                             contract deduction status.

                             To test whether guard contractors were deploying qualified and certified
                             contract guards, we reviewed 93 contract guard files and visited 18 FPS-
                             protected facilities in the NCR. We reviewed files to determine whether
                             guards had current suitability determinations and certifications needed to
                             perform their duties. For the 18 buildings we visited, we obtained and
                             reviewed post orders, requested certification cards, and interviewed guards on
                             post to verify that they met current contract provisions related to guard
                             deployments and qualifications.

                             Expired Suitability Determinations

                             FPS policy mandates that prospective contract employees, including guards,
                             undergo limited criminal history background checks to ascertain whether any
                             serious criminal offenses or incidents exist in order to determine potential risk
                             or threat to the safety and security of personnel and equipment. Failure to
                             obtain a favorable suitability determination disqualifies prospective guards
                             from employment under a contract with FPS. To receive a suitability
                             determination, applicants must undergo several computerized background
                             checks, including those administered by the U.S. Citizenship and Immigration
                             Services, the National Crime Information Center, and the Federal Bureau of
                             Investigation.

                             Contractors are responsible for renewing guard suitability determinations prior
                             to their expiration.4 Guards that continue to work under the contract after

4
    All contract guards must be re-certified for background suitability every two years.




                                           Federal Protective Service Needs To Improve its Oversight of the
                                                            Contract Guard Program

                                                                     Page 5
their suitability determination has expired must be removed from the contract
until a new suitability determination is made. Contract guard companies are
required to submit recertification applications to NCR at least 30 days prior to
an expiring suitability determination. The FPS Contract Guard Employment
Requirements Tracking System (CERTS) is used by QASs to determine
whether suitability determinations are current or expired.

Some contract guards continued working at FPS-protected facilities after their
suitability determinations had expired.

• 	 A review of CERTS data for 93 contract guards identified four guards
    (4%) that were on post with expired suitability determinations. The
    number of days that the suitability determinations had expired ranged from
    26 to 87 days.

• 	 In addition, a review of 25 contract suitability files identified four guards
    (16%) who worked during 2005 with expired suitability determinations for
    as long as 201 days before being recertified.

• 	 Inspection reports submitted by QASs in November and December 2005
    identified 18 guards on post with expired suitability determinations. In
    every case, the guards continued working at their posts. In one instance, a
    guard was still on post as of January 2006, although NCR adjudicated the
    guard unfavorable in May 2005 due to a felony assault conviction. NCR
    had notified the guard company on May 4, 2005, that they needed to take
    the necessary steps to remove the guard from the contract. However, the
    guard continued to work until we brought this issue to NCR
    management’s attention. The guard was then removed from her post. In
    another instance, a guard continued to work, although his suitability
    determination had been expired for six months.

Also, contractors did not submit recertification applications to FPS 30 days
prior to suitability certifications expiring. Of 58 guards whose suitability
certifications were expiring within 10 days, only 11 (19%) were in the process
of having their suitability reevaluated by FPS. Allowing guards to work after
their suitability determinations have expired enhances the risk of retaining
guards with serious criminal offenses that would otherwise disqualify them
from employment.




           Federal Protective Service Needs To Improve its Oversight of the
                            Contract Guard Program

                                     Page 6
                           Expired Certifications

                           In addition to suitability determinations, contract guards are required to have
                           as many as 21 other certifications to perform their duties. Examples of other
                           certifications include firearms qualification, drug screening, and first aid
                           certifications. (See Appendix C for a complete listing of certification
                           requirements.) The number of certifications each guard is required to have is
                           dependent on their position (supervisory vs. non-supervisory) and building
                           post orders (armed vs. unarmed post). According to the contract statement of
                           work, contractors are responsible for obtaining initial and recurring
                           certifications for all contract guards. Contractors forward completed
                           certification documents to the NCR Suitability and Certification Unit where
                           personnel security specialists enter certification information into the CERTS
                           database.

                           Our review of CERTS data for 93 contract guards disclosed that 28 guards
                           (30%) working for 10 contractors had at least one expired certification.5

                                •	  Twelve guards had expired expandable baton certifications.
                                •	  Eight guards had expired domestic violence certifications.6
                                •	  Five guards had expired background investigations.7
                                •	  Five guards had expired refresher training.
                                •	  Three guards had expired Cardiopulmonary Resuscitation (CPR)
                                    training.
                                • 	 Two guards had expired medical certifications.

                           Compliance with recertification requirements ensures that the guards retain
                           their knowledge base in required areas and enhances the security and safety of
                           employees and visitors at federal facilities.

                           Non-compliance with Other Contract Performance Requirements

                           Each guard contract includes a post coverage schedule which specifies the
                           guard post hours and locations for each building covered by the contract. The
                           post coverage schedule, along with the other provisions in the contract,

5
  For a complete listing of expired certifications, see Appendix D. 

6
  Guards with domestic violence backgrounds are not authorized to carry weapons. 

7
  According to a NCR Personnel Security Specialist, the NCR requires background investigations in addition to

suitability determinations. The background investigation is limited to regional police checks in the District of Columbia, 

Maryland, and Virginia, and is used to detect recent criminal activity that might not have been available at the time of the 

suitability determination.





                                         Federal Protective Service Needs To Improve its Oversight of the
                                                          Contract Guard Program

                                                                    Page 7
                         specify performance requirements for such items as: armed vs. unarmed
                         guards; additional security clearances such as “Secret” or “Top Secret;” and
                         other requirements relating to guards carrying certain credentials, such as
                         those that indicate pistol qualification, and work permit status cards for non
                         citizen guards.

                         To work at an FPS-protected facility, a guard must possess a valid GSA
                         Certification Card (GSA Form 3527), which provides evidence that the guard
                         has received a favorable adjudication, passed the medical examination,
                         completed the required training, and passed the other required examinations.
                         In addition to the GSA Form 3527, the guard must possess an A-1 pistol card,
                         if armed; expandable baton card; work permit card, if alien; and, a CPR/first
                         aid card.

                         NCR contractors did not consistently meet contract provisions related to guard
                         deployments and qualifications. We visited 18 NCR buildings during January
                         and February 2006, and inspected 73 guard posts to ensure that guards
                         stationed at armed posts were, in fact, armed; had the appropriate additional
                         security clearance when needed; and, were carrying certification cards
                         required by the contract or NCR procedures. We noted the following
                         violations:

                             • 	 8 of 48 guards stationed at armed posts were not armed as required.
                             • 	 3 of 25 guards stationed at unarmed posts were armed.
                             • 	 3 of 10 contract guards did not have the required clearances to work at
                                 their assigned posts. Two did not have the required “Top Secret” and
                                 one did not have the required “Secret” clearance. Further, 2 of the 3
                                 did not have current suitability determinations.8
                             • 	 9 of 10 non-citizen guards were not carrying their work permit cards.
                             • 	 2 of 48 armed guards were not carrying their pistol qualification cards.
                             • 	 1 of 48 armed guards was carrying an expired pistol qualification card.
                             • 	 1 of 73 guards was not carrying a first aid card.
                             • 	 4 of 73 guards were carrying an expired CPR card.
                             • 	 1 of 73 guards was not carrying their CPR card.
                             • 	 7 of 73 guards were carrying an expired expandable baton card.
                             • 	 3 of 73 guards were not carrying an expandable baton card.




8
 After verifying our finding, NCR management removed the guards from post and assessed deductions to the guard
companies for violating the contract.




                                      Federal Protective Service Needs To Improve its Oversight of the
                                                       Contract Guard Program

                                                                Page 8
                          As a result, guards were not properly protecting federal facilities with the
                          required weapons, security clearances, and certifications.

                          Need to Enhance Guard Contract Monitoring

                          NCR officials did not adequately monitor contract guard compliance with the
                          contract provisions. FPS’s monitoring and enforcement role is critical to
                          ensuring that contract guard companies, and the guards they deploy at FPS-
                          protected facilities, meet the minimum standards set in the contracts between
                          FPS and the companies. If NCR does not actively, accurately, and
                          consistently monitor contract guard contracts, the Region, by default, will be
                          dependent on the honesty of its contractors to ensure that all contract
                          provisions and requirements are met.

                          NCR is primarily reliant upon the QAS and Contract Section personnel to
                          monitor contract guards that are on post and ensure they were qualified,
                          trained, and performed according to their contracts. NCR’s 12 QASs are
                          responsible for conducting audits and onsite inspections of contract guard
                          activities at FPS-protected facilities. NCR’s eight Contract Section personnel
                          are responsible for processing deductions to contractor invoices due to
                          noncompliance issues uncovered by the QASs. However, the QASs were not
                          consistently submitting their inspection reports to the NCR Contract Section,
                          and for those that were submitted, most were not submitted in a timely
                          manner. In addition, Contract Specialists were not making deductions to
                          contractor invoices when appropriate. Specifically, they did not process
                          potential deductions from contractor invoices totaling almost $1.3 million
                          when guard companies failed to comply with contract requirements.

                          QASs Were Not Providing Adequate Onsite Monitoring of Guard
                          Contracts

                          NCR has designated 12 QASs to monitor security services contracts to ensure
                          the government receives the caliber of services for which it has contracted and
                          to ensure compliance by contractors with contract provisions. Each QAS is
                          responsible for a set number of FPS-protected facilities in the NCR.

                          On a weekly basis, the QASs are required to collect the GSA Form 139s9 from
                          each guard post and conduct audits and inspections to identify instances of
                          contractor violation of contract requirements. Audits consist of reviewing the

9
 When contract guards report to work, they are required to sign in and to sign out on GSA Form 139, Record of Time of
Arrival and Departure Contract Guarding Duty Register.




                                       Federal Protective Service Needs To Improve its Oversight of the
                                                        Contract Guard Program

                                                                 Page 9
                        GSA Form 139s and other records to validate that contract guards met
                        contract requirements for manning their posts. As part of this review, a QAS
                        would determine whether a guard worked in excess of the 12-hour work rule,
                        or a guard was working with an expired suitability determination or
                        certification.10 Inspections consist of onsite physical inspections of contract
                        guards that determine, for example, whether an unarmed guard was stationed
                        at an armed post, or whether a post was abandoned. QASs are required to
                        prepare and submit the inspection report to NCR’s Contract Section by the 5th
                        workday following the month in which guard services were provided. Results
                        of these audits and inspections, including deficiencies, are summarized on
                        GSA Form 2820, Guard Contractor Inspection Report (Inspection Report).
                        The Inspection Report is the primary tool used by NCR to monitor compliance
                        with guard contract provisions and requirements.

                        QASs were not consistently collecting and auditing the GSA Form 139s and
                        submitting Inspection Reports to the NCR Contract Section. For one building
                        we visited, a contract guard stated that no one had collected the GSA Form
                        139s in the five months since he started working at that building. Unless the
                        forms are collected, NCR is unable to properly verify and ensure complete
                        and satisfactory performance of guard services according to the terms
                        specified under the contract.

                        Also, Inspection Reports submitted to NCR’s Contract Section were not
                        submitted by the 5th workday following the month in which guard services
                        were provided, as required. For example, as of December 7, 2005, (the 5th
                        workday of the month), the QASs had not submitted Inspection Reports for
                        November 2005 to the Contract Section for 41 of the 62 buildings (66%) that
                        we selected for review. Of 260 Inspection Reports submitted during
                        November and December 2005, 191 (73%) were not submitted timely, and
                        were late by as much as 13 months. For example, one QAS reviewed
                        contractor performance for the time period December 12-18, 2004; however,
                        the Inspection Report was not prepared until August 6, 2005, and was not
                        submitted to the contract section until December 2005, a 10-month delay.
                        Unless Inspection Reports are prepared and submitted to the Contract Section
                        timely, monetary deduction letters for identified deficiencies cannot be
                        prepared. Specifically, for the 191 late Inspection Reports, potential
                        deductions identified by the QASs totaling $221,989 could not be initiated
                        against contractors.


10
  QASs have access to the Contract Guard Employment Requirements Tracking System to determine whether the
contractor has properly submitted the required information to certify the guard’s qualifications.




                                     Federal Protective Service Needs To Improve its Oversight of the
                                                      Contract Guard Program

                                                              Page 10
NCR has not provided adequate supervision of QASs in the performance of
their duties and does not have a sufficient number of QASs to properly
monitor 125 facilities and 5,700 guards. Prior to September 2005, the 12
QASs reported to one NCR police officer who said that, although the QASs
reported to him, he believed that the Contracting Officer dictated their day-to
day work activities. The officer also said that he did not oversee whether
QASs were fulfilling their oversight responsibilities over contract guard
contracts, and that he supervised the QASs for time and attendance purposes
only.

In September 2005, the 12 QASs were reassigned to several Area
Commanders within the three NCR districts. However, this has not
established responsibility for effective oversight of QAS activities.
Discussions with two Area Commanders to whom nine QASs currently report
disclosed they were minimally involved in supervising the QASs’ work as it
related to their inspection duties. One Area Commander (to whom six QASs
reported) said that she did not exercise any supervisory control over the work
the QASs performed related to monitoring contract guards, such as ensuring
that QASs: collect GSA Form 139s weekly; perform timely audits of the GSA
Form 139s; submit the Inspection Reports to the Contract Section; and
conduct physical inspections of posts. Another District Area Commander,
who supervises three QASs, said that he did not exercise any supervisory
control over QAS contract guard monitoring activities.

In addition, the NCR Contract Security Program Manager advised us there
were an inadequate number of QASs available for the large number of guard
posts they were required to inspect on a weekly basis, resulting in a backlog of
inspections. To relieve the backlog, he said he plans to train NCR police
officers and physical security specialists to assist QASs in performing security
guard audits and inspections.

Contract Specialists Are Not Consistently Processing Deductions to
Contractor Invoices

In response to areas of contractor non-performance identified in QAS
Inspection Reports, the NCR Contract Section may propose deductions from
contractor invoice payments. This remedy is the primary penalty mechanism
available to FPS to address contract nonperformance or inadequate service by
the contractor. After receiving information in an Inspection Report detailing
contract performance violations, the NCR Contract Section prepares a
proposed contractor deduction letter which informs the contractor of
violations and the reasons for proposed deductions.



           Federal Protective Service Needs To Improve its Oversight of the
                            Contract Guard Program

                                    Page 11
                          According to guard services contract provisions, NCR must notify the
                          contractor of the type and dollar amount of the proposed deductions by the
                          10th working day following the month in which the guard services were
                          performed. The contractor then has 10 working days after receipt of the
                          notification to submit a rebuttal to a Contract Specialist stating the specific
                          reasons why all or part of the proposed deductions should not be taken. If the
                          Contracting Officer determines that any or all of the proposed deduction is
                          still warranted, the contractor is notified and the amount of the deduction is
                          recorded on GSA Form 3025, Receiving Report, which is then submitted to
                          the NCR Budget Office for payment deduction processing. Examples of
                          contract violations and deduction rates are listed in Table 1 below.

                            TABLE 1: DEDUCTION RATE FOR CONTRACT VIOLATIONS
                                      Contract Violation             Deduction Rate
                            Unarmed guard working on or at armed post        100% of hourly rate for each hour worked
                            Guard working without valid GSA
                            Certification or Suitability clearance           100% of hourly rate for each hour worked
                            Failure to provide relief breaks                 Hourly rate, pro-rated for amount of break
                                                                             not provided
                            Backfill required by FPS personnel               No less than 100% of the hourly rate and no
                                                                             more than $50 per hour of FPS provided
                                                                             services
                            Failure to provide uniforms or equipment         Based on actual cost of purchase, lease, or
                                                                             rental pro-rated for time period in question
                            Failure to provide vehicle or vehicle provided   Based on pro-rated share of contractor’s
                            is inoperable                                    actual costs

                          The NCR Contract Section is not consistently processing deductions against
                          contractors for violations of contract requirements. In our sample of the
                          disposition of 45 deduction letters submitted to contractors during the period
                          February 2005 to August 2005, the Contract Section had not processed 38 of
                          45 proposed deduction letters totaling almost $1.3 million in contractor
                          violations:11

                               • 	 In 28 instances, deduction letters were sent, but no rebuttal letters were
                                   received or processed by Contract Specialists, and a final decision was
                                   never rendered on the proposed deduction.

11
  Examples of violations included: unarmed guards at armed post; unmanned/abandoned posts; guards working in
excess of 12 hours; and, guards with expired certifications. The remaining seven letters processed by the Contract
Section proposed deductions totaling $245,000.




                                        Federal Protective Service Needs To Improve its Oversight of the
                                                         Contract Guard Program

                                                                 Page 12
   • 	 In nine instances, deduction letters were sent and rebuttal letters were
       received, but Contract Specialists failed to take action on the rebuttal
       letters, and, therefore, the Contracting Officer did not render a final
       decision.

   • 	 In one instance, the deduction letter was sent, the rebuttal letter was
       received, a Contract Specialist reviewed the rebuttal letter, and a final
       decision against the contractor was rendered; however, FPS did not
       deducted $12,734 from the contractor’s invoice.

We attribute these lapses to the following conditions:

   • 	 NCR officials stated that the NCR Contract Section is understaffed,
       contributing to the delays in processing the deduction letters and
       responding to the rebuttal letters. The Section was operating with only
       one-third of the Contract Specialists it had in February 2005 (four of
       twelve).

   • 	 The NCR Contract Section does not have effective procedures and
       systems to track Inspection Reports. Inspection Reports are not date-
       stamped by the Contract Section when received, which makes
       timeliness of processing more problematic. In addition, because the
       Contract Section does not maintain an inventory of FPS-protected
       buildings, they have no assurance that they have received all required
       Inspection Reports. Finally, the filing system is poor, consisting of
       stacks of Inspection Reports and GSA Form 139s all over the floor of
       a filing room, as shown in Figure 1.




           Federal Protective Service Needs To Improve its Oversight of the
                            Contract Guard Program

                                    Page 13
             Figure 1: File Room for QAS Inspection Reports and GSA Form 139s




   • 	 The NCR Contract Section does not maintain a system to track the
       status of deduction letters. Consequently, the Contract Section
       personnel were unable to identify:

           o 	Number of proposed deduction letters sent to the contractors;
           o 	Number of contractor rebuttals submitted in response to the
              proposed deduction letters;
           o 	Final decision rendered on proposed deductions; and
           o 	Final deduction amounts taken against unfavorable decisions.

Conclusion

FPS is not adequately monitoring its guard contracts. Guards were working
with expired suitability determinations, unarmed guards were working at
armed posts, a guard with felony convictions was employed by one contractor,
and guards did not always have the required “Secret” and “Top Secret”
clearances. These lapses in contractor oversight can result in the government
paying for services it did not receive, loss of monies resulting from contract
deductions due to nonperformance, and placing FPS-protected facilities,
employees, and facility visitors at risk.




           Federal Protective Service Needs To Improve its Oversight of the
                            Contract Guard Program

                                    Page 14
Recommendations
       We recommend that the Regional Director of the National Capital Region:

          Recommendation 1: Ensure that NCR Area Commanders adequately
          monitor QASs’ inspection reports for quality and timeliness, and provide
          training for QASs found to be deficient.

          Recommendation 2: Provide the necessary resources to the Contract
          Section to ensure the timely processing of proposed deduction letters.

          Recommendation 3: Establish effective systems and procedures to track
          the status of Inspection Reports and proposed deduction letters to ensure
          guard company compliance with contract requirements.

          Recommendation 4: Review all inspection reports and proposed
          deductions for the period March 1, 2003 through the present and initiate
          collection actions on all contracts found to be deficient.




                 Federal Protective Service Needs To Improve its Oversight of the
                                  Contract Guard Program

                                          Page 15
Management Comments and OIG Analysis

       Management Comments to Recommendation #1

       ICE stated that the agency has taken and will take specific steps to improve
       the monitoring of the contract guard program, which are detailed in the
       agency’s response to our draft report. For example, standard operating
       procedures have been developed and implemented that outline a process to
       monitor contract performance and guard company deductions that are
       proposed, assessed, and actually taken. In addition, the agency has selected a
       Contract Guard Program Manager to oversee the regional guard program and
       act as liaison to the Consolidated Contracting Groups, QASs, agencies, and
       guard companies. The agency also plans to increase the number of trained
       personnel involved in monitoring the contract guard program. In addition, a
       process has been developed to assess and report on guard contractor
       performance and use past performance as a factor in the selection process for
       future contractor selection.

       Management Comments to Recommendation #2

       ICE agreed that additional resources are needed to perform all of the
       responsibilities necessary to efficiently run the Contract Section and to ensure
       the timely processing of proposed deduction letters. However, the agency
       stated in its response that due to budgetary constraints that are preventing
       increased staffing, some of the functions have been transferred to other
       sections in order to accomplish their mission. The QASs have been
       reassigned to their respective district commands for more direct monitoring of
       their contract sites, the Physical Security Inspectors have been reassigned to
       the district command for more direct monitoring, the Contract Guard Program
       has been reassigned from the Threat Management Branch to the Mission
       Support Division, and the Background and Suitability Unit has been
       reassigned from the Mission Support Division to the Contract Guard Program.

       Management Comments to Recommendation #3

       ICE accepted this recommendation and stated the following steps have already
       been taken to address this issue: ICE (1) selected a Contract Guard Program
       Manager to oversee the regional program; (2) developed and implemented
       Standard Operating Procedures for the Contract Guard Program; (3) trained
       Inspectors and Police Officers to increase the number of personnel involved in
       the contract guard-monitoring program; (4) developed a process to assess and




                  Federal Protective Service Needs To Improve its Oversight of the
                                   Contract Guard Program

                                           Page 16
                           report on guard contractor performance; and (5) initiated a weekly status
                           report outlining all regional activities impacting the guard program.

                           Management Comments to Recommendation #4

                           ICE stated that its efforts are ongoing. The entire contract guard program has
                           been assumed by acquisitions and compliance functions of the Consolidated
                           Contract Guard Program under the direction of the supervision of the ICE
                           Office of Acquisition Management. The agency further stated that this group
                           has assumed responsibility for reviewing all past Inspection Reports and
                           deduction letters.

                           OIG Comments and Analysis

                           We consider Recommendations #1 and #2 resolved and closed. The actions
                           planned or taken by ICE to improve FPS’s contract guard monitoring efforts
                           should ensure that contractors are consistently deploying qualified and
                           certified contract guards at federally protected facilities. We consider
                           Recommendation #3 resolved but open until ICE addresses how it intends to
                           track the status of Inspection Reports and proposed deduction letters. In
                           addition, we consider Recommendation #4 resolved but open until the ICE
                           Office of Acquisition Management completes it review of all past Inspection
                           Reports and deduction letters and initiates collection actions on all contracts
                           found to be deficient.

         Payment of Contract Guard Invoices

                           FPS is not paying invoices for its contract guard services nationwide in a
                           timely manner, resulting in a violation of the Prompt Payment Act. Of the
                           25,557 invoices paid from October 1, 2004, to November 21, 2005, 88 percent
                           were not paid within 30 days as required by the Prompt Payment Act.12 Of
                           the 25,557 invoices paid from October 1, 2004, to November 21, 2005,
                           88 percent were not paid within 30 days as required by the Prompt Payment
                           Act. As a result, FPS paid over $1.2 million in interest to guard companies
                           that are contracted by FPS to protect federal buildings for late payments made
                           during this time period. Failure by FPS to pay contract guard companies in a
                           timely manner is not only costing the government millions in interest, but is

12
  The Prompt Payment Act requires federal agencies to pay their bills on a timely basis and pay interest when payments
are late (generally 30 days after receipt of invoice). According to Title 5 of the Code of Federal Regulations,
Part 1315.4(g), interest will accrue on any payment not paid within 30 days after receipt of invoice, if not specified in the
contract, if discounts are not taken, and if accelerated payment methods are not used.




                                          Federal Protective Service Needs To Improve its Oversight of the
                                                           Contract Guard Program

                                                                   Page 17
also placing contractors and the services they provide to protect federal
buildings and employees at risk.

To obtain payment for contract guard services, FPS guard contractors are
required to submit monthly invoices for contract guard services by the first
day of the following month to FPS. An NCR Contract Specialist reviews the
invoice to ensure compliance with the contract, and, if acceptable, prepares a
receiving report certifying that the services have been received. The invoice
and receiving report are then forwarded to the NCR Budget Office, which is
responsible for ensuring adequate funding is available and preparing a
receiving ticket. The invoice and receiving ticket is then forwarded to
Immigration and Custom Enforcement’s (ICE) Dallas Finance Center (DFC),
which processes all payments for FPS. The DFC will match the invoice and
the receiving ticket to an obligation. If the invoice amount plus previous
payments do not exceed the obligated amount, the payment will be processed.

DFC paid 25,557 invoices amounting to $544 million from October 1, 2004,
until November 21, 2005 nationwide. As shown in Table 2, only 12 percent
of these invoices were paid within 30 days. Twenty five percent of the
invoices were paid later than 90 days from the date of invoice. DFC paid
$1,246,992 in interest on these late payments.

              Table 2: Paid Invoices for Contract Guards, 10/1/04 –11/21/05
                                                Invoice Date to Payment Date

   Payments       Total Invoices   ≤ 30days       31-60 days       61-90 days   >90 days
 Total               25,557           3,141         8,671            7,356       6,389
 Percentage           100%            12%            34%              29%         25%




           Federal Protective Service Needs To Improve its Oversight of the
                            Contract Guard Program

                                    Page 18
As shown in Table 3, the NCR alone had 263 unpaid invoices for 16
contractors, totaling $18.5 million, as of September 2005. The performance
periods for these unpaid invoices date as far back as FY 2003. One contractor
had 46 unpaid invoices, while another contractor was owed in excess of $3.4
million.

                  Table 3: Region 11 Unpaid Invoices as of 9/23/05
                 Number of Unpaid                                Oldest Performance
  Contractor                          Amount Outstanding
                    Invoices                                           Period
      1                 16                 $3,442,002                Sept. 2004
      2                 13                 $2,449,953                 Feb. 2005
      3                 39                 $1,389,813                Sept. 2003
      4                  2                    $52,409                Aug. 2004
      5                  6                   $158,529                Mar. 2005
      6                 18                 $1,037,542                 Oct. 2004
      7                 46                 $2,616,038                May 2004
      8                  7                   $664,159                 Apr. 2004
      9                 13                   $114,752                Dec. 2003
     10                 32                 $1,418,530                May 2004
     11                 32                 $2,211,804                 Jan. 2004
     12                 1                      $4,341                Dec. 2004
     13                  4                   $449,522                May 2005
     14                 11                   $205,318                 Jun. 2003
     15                 10                 $1,619,075                 Jan. 2004
     16                 13                   $715,435                 Jan. 2005
   TOTAL               263                $18,549,222

We attribute the cause for the payment delays to: (1) FPS’ transition from the
GSA Financial Management System to the ICE Federal Financial
Management System, which was not adequately planned; and, (2) FPS’
contract administration practices, which adversely affected invoice payment.

FPS’ Transition from the GSA Financial Management System to the ICE
Federal Financial Management System

The FPS transition to ICE on October 1, 2004, occurred before the system was
adapted to meet the unique financial and budgeting requirements associated
with FPS’ business processes. The DHS, Office of the Under Secretary for
Management, originally directed that the FPS transition from the GSA
Financial Management System to the ICE Federal Financial Management
System (FFMS) be completed by October 1, 2003. Following the initial
review of the unique financial management requirements needed to support
the FPS offsetting collections program, the transition date was extended to
October 1, 2004. FPS officials stated that, despite attempts to explain FPS




           Federal Protective Service Needs To Improve its Oversight of the
                            Contract Guard Program

                                    Page 19
                        business processes and FFMS needs to the ICE Office of Financial
                        Management (OFM), problems with adapting the FFMS to FPS needs
                        remained and suggested that the transition to the ICE system be postponed.
                        However, DHS required FPS to transition to the system on October 1, 2004,
                        despite concerns about the system’s ability to meet FPS needs. ICE financial
                        management staff had assured the staff of the Senate Appropriations
                        Committee, in a briefing on February 17, 2005, that the FPS transition would
                        be completed by March 31, 2005.

                        However, problems with contractor payments and the transition to FFMS
                        continued. In a May 6, 2005, memorandum to the Assistant Secretary for
                        ICE, the Director of FPS outlined what he considered systemic problems and
                        issues with the FFMS and noted that problems with contractor payments had,
                        in fact, worsened since the transition. An independent auditor contracted by
                        us to perform an audit of DHS financial statements13 also concluded that the
                        integration of FPS’ accounting processes from GSA to ICE created numerous
                        issues with the integrity of FPS transaction data and represented a material
                        weakness in ICE’s internal controls.

                        FPS Budget and Finance officials in Region 3 and FPS Headquarters officials
                        informed us that inadequate training prior to the transition and the difficulty in
                        using the FFMS contributed to the invoice payment problems. These officials
                        indicated that the system is difficult to navigate and that errors are
                        time-consuming to correct.

                        Because of the continuing problems, ICE and FPS personnel have been
                        working in “Tiger Teams” to perform a reconciliation of the FY 2005 default
                        account, assisting with expediting FY 2006 payments and looking at future
                        ways to reduce the payment backlog. As of the time of our fieldwork, which
                        ended in February 2006, the Teams were still working.




13
  DHS’s Performance and Accountability Report for Fiscal year 2005, November 15, 2005, Department of Homeland
Security.




                                     Federal Protective Service Needs To Improve its Oversight of the
                                                      Contract Guard Program

                                                              Page 20
FPS’ Contract Administration Practices Adversely Affected Invoice
Payment

ICE procurement personnel, NCR budget personnel, NCR procurement
personnel, and FPS contract guard companies identified FPS contract
administration practices that have contributed to invoice payment delays.
ICE procurement personnel advised that FPS does not routinely provide
required, complete, and accurate supporting documentation and data for
procurement actions in order to process invoice payments timely. We
analyzed “After-the Fact” ICE reviews of three FPS procurement actions.
ICE personnel provided examples where FPS contracts for guard services
failed to include critical items, such as:

   •	   Contract signed and dated by the contractor;
   •	   Contract modifications;
   •	   Correct performance periods; and
   •	   A contract administration plan to ensure full performance by the
        contractor.

As a result of these and other deficiencies in its contract administration, FPS
was not able to enter the obligation data completely and accurately in the
FFMS. Until the data is properly entered, payments of the invoices are
delayed.

An NCR FPS analysis of 118 invoices that were unpaid at the end of FY 2005
confirmed that FPS was contributing to contractor invoice payment delays.
According to this analysis, most invoices were unpaid because the obligations
were missing or under-funded. As shown in Table 4, 83 of 118 invoices had
no corresponding obligation in the FFMS.


                  Table 4: FPS Analyses of Unpaid Invoices
               Reason for Delay            Number of Invoices
          No funds available                        5
          No Obligation                            83
          Problem with Obligation                  6
          Correct Obligation                       16
          Miscellaneous                             8
          TOTAL                                   118

Guard contractors said they were unable to bill FPS because paperwork was
not received timely from FPS contracting officials. Because a number of




           Federal Protective Service Needs To Improve its Oversight of the
                            Contract Guard Program

                                    Page 21
contracts were set to expire and NCR personnel were unable to get new
contracts in place, the FPS Contracting Officer requested the guard companies
to agree to “letter contracts” extending their services for six months. FPS
personnel informed the contractors that the paperwork finalizing the contracts
would soon follow. However, the paperwork was still not provided to the
contractors six months after the services began. As a result, the contractors
were not paid timely for these services.

NCR understaffing also contributed to the untimely processing of contract
guard invoices. According to the FPS Director of Acquisition Management,
the group responsible for serving the NCR is severely understaffed and the
personnel on board did not have the warrant level required for administering
large procurement actions. There were 12 Contract Specialists serving NCR
at the time FPS transitioned to the ICE FFMS, but at the time of our
fieldwork, only four remained. As a result, he said the contractors were not
getting paid; invoices were not getting reviewed, and new contracts were not
getting awarded. The Director said that he was attempting to hire more
procurement personnel.

Payment Problems Forced ICE to Pay Some Invoices Using a Default
Account

In addition to complaints from contract guard companies, FPS and ICE
received numerous inquiries from the DHS Chief Financial Officer, DHS
Chief Procurement Officer, and the Congress to expedite the payment process.
These inquiries combined with the $1.2 million paid interest compelled ICE to
implement changes. ICE decided to institute a default accounting string code
to obligate/disburse items for which there were no supporting obligations.
From October 1, 2004, until November 21, 2005, the DFC paid $121 million
in contractor invoices from the default account.

This practice could result in overpayments, duplicative payments, and
significant reconciliation difficulties for FPS. The FPS Director of Financial
Management strongly recommended that the default code not be applied to the
FPS account. He said that that this process will almost certainly place the FPS
Account in violation of the Antideficiency Act, will further delay contractor
payments, cause additional delays in the reconciliation process, and create a
large additional workload that neither ICE or FPS will be able to reconcile
before the end of the fiscal year.




           Federal Protective Service Needs To Improve its Oversight of the
                            Contract Guard Program

                                    Page 22
                             Late Payments Causing Financial Hardship for Some Contractors

                             Because many FPS contract guard companies are not receiving timely
                             payments for their services, they are experiencing considerable financial
                             hardship, especially the smaller companies that have limited borrowing
                             capacity. In May 2005, the Director of FPS reported that FPS guard
                             contractors were resorting to liquidating cash reserves and short-term lines of
                             credit in order to meet their payroll obligations. The interest that is paid to
                             these companies under the Prompt Payment Act14 may not offset the added
                             expense and difficulties associated with meeting payroll obligations.

                             We interviewed or visited several contract guard companies. One contractor
                             who had contracts with several FPS regions complained that his invoices had
                             an average turnaround time of almost 90 days. Further, he said his current
                             outstanding balance was $11 million. Untimely payments has caused his
                             borrowing needs to increase by $5 million over his existing line of credit and
                             he had to pay an additional 2% over the existing borrowing rate. This rate of
                             interest was considerably higher than the rate of interest used to calculate the
                             amount of interest paid on late payments under the Prompt Payment Act.

                             Another contractor said late payments caused him financial hardship, which
                             resulted in his reducing hours for administrative staff because of inadequate
                             cash flow. The contractor told us that they had to limit full-time
                             administrative personnel to part-time work because of their inability to meet
                             their payroll. The financial problems became so severe that the contractor
                             was unable to pay his taxes and the Internal Revenue Service was in the
                             process of issuing a Notice of Levy on the company.


           Recommendations
                             Recommendation 5: We recommend that the Director of the Federal
                             Protective Service work with the ICE CFO to implement corrective actions to
                             adequately address internal control deficiencies and payment timeliness issues
                             noted here and in our annual financial audit report issued in November 2005.




14
     5.125 percent in January 2006.




                                        Federal Protective Service Needs To Improve its Oversight of the
                                                         Contract Guard Program

                                                                 Page 23
Management Comments and OIG Analysis

          Management Comments to Recommendation #5

          The Assistant Secretary stated that FPS’ contracting activities has been
          merged into the ICE contracting component under the supervision of the
          Director of the ICE Office of Acquisitions Management. ICE will continue to
          work with FPS to achieve improvements in business process that will address
          these concerns. In addition to the Tiger Team efforts referenced in the report,
          ICE has put into place a Financial Action Plan (FAP) to address findings from
          the 2004 and 2005 financial audits including those that relate to FPS issues.
          The Project Management Office has worked with various offices and
          stakeholders to develop the plan, and is overseeing the implementation of the
          FAP. The FAP includes a project to improve invoice processing. Under the
          direction of the Head of Contracting Activity (HCA), the ICE Office of
          Acquisition Management is taking an active oversight role over FPS
          contracting activities.

          The Assistant Secretary also reported that reconciliation is currently underway
          to properly reclassify the default transactions to the appropriate accounting
          codes. Further, ICE has worked with the Office of Management and Budget
          to apportion additional budget authority in the first quarter of fiscal year 2006
          to allow FPS Regions to fully fund contracts. Other steps to implement
          corrective action include an organizational change in facilitating
          standardization of acquisition policies and procedures in FPS, the
          establishment of a Headquarters Acquisition Management Office that reports
          to the HCA, and all FPS Regional contract staff now report to the
          Consolidated Contract Groups (CCGs). FPS also established four CCGs that
          report to the FPS Director of Acquisition Management. Additionally, FPS is
          currently using the ICE automated procurement system that standardizes the
          procurement process and documentation. Implementation of the electronic
          interface between the Procurement Request Information System Management
          (PRISM) system and the financial system will result in automated
          establishment of obligations upon award.

          OIG Comments and Analysis

          We agree that ICE has been responsive to our recommendation and has taken
          steps to implement corrective actions to adequately address internal control
          deficiencies and payment timeliness issues. We consider this
          recommendation resolved but will remain open until implementation of the
          various steps outlined in the agency’s response are complete.



                     Federal Protective Service Needs To Improve its Oversight of the
                                      Contract Guard Program

                                              Page 24
Appendix A
Purpose, Scope, and Methodology



                    The objective of the audit was to determine whether the FPS monitors
                    contractor performance and compliance with contract provisions and whether
                    effective controls are in place to ensure that qualified and certified contract
                    guards are deployed at federal buildings. Also, we determined whether FPS
                    contract guard company invoices were paid timely according to provisions the
                    Prompt Payment Act.

                    The scope of our work for reviewing guard qualifications, performance
                    requirements, and FPS’s monitoring of contract guards was conducted at the
                    NCR. The scope of our work on the timeliness of contract guard payments
                    included all FPS regions. Our scope did not permit evaluating the quality of
                    contractor processes for monitoring guard qualifications and ensuring
                    compliance with other contract provisions.

                    To determine the timeliness of NCR’s contract suitability reviews, we
                    examined contract suitability files for 25 contract guards. We reviewed
                    information stored in the Contract Suitability System and verified it against
                    the information in the contract suitability files for the 25 contract guards. To
                    determine whether there were any contract guards whose suitability
                    determination had expired, we reviewed Inspection Reports and GSA
                    Form 139s submitted by QASs in November and December 2005, and
                    identified 19 guards. We examined the CERTS guard files for the 19 guards
                    to determine when their suitability had expired and whether it had been
                    adjudicated favorably later. We reviewed Inspection Reports for the 19
                    guards covering the period that each guard’s suitability was expired and
                    documented whether the QAS had identified the deficiency on the relevant
                    Inspection Reports.

                    To examine contractor qualifications, we obtained and reviewed FPS’s Policy
                    Handbook, Contract Guard Information Manual, and guard services contracts
                    for NCR. We selected 93 contract guard files for review. We examined the
                    guard files and CERTS data for all 93 guards to determine whether suitability
                    determinations or other certifications had expired.

                    To examine the contractor guards’ performance, we inspected 73 guard posts
                    at 18 buildings within the NCR. We judgmentally selected six buildings from
                    each of the three NCR districts. The 18 buildings were guarded by 12 of 18
                    guard contractors in the NCR. At each building, we determined whether
                    guards: 1) were manning the guard posts; 2) were in uniform and were well
                    groomed; 3) were performing any prohibited activities such as reading, eating,



                               Federal Protective Service Needs To Improve its Oversight of the
                                                Contract Guard Program

                                                        Page 25
Appendix A
Purpose, Scope, and Methodology



                    sleeping, etc; 4) were armed when required; 5) had required guard
                    certifications; 6) had additional security clearance above the FPS suitability
                    determination when needed; and 7) were carrying required certification cards,
                    such as the FPS Certification card and cards for CPR and First Aid Training.
                    We visited and inspected posts at these 18 buildings between January 10,
                    2006, and February 2, 2006.

                    To evaluate NCR monitoring of qualifications and performance of contract
                    guards, we obtained and reviewed the QAS position description, contract
                    guard service contracts, and the FPS Policy Handbook. We also reviewed
                    GSA Form 2820s, and GSA Form 139s submitted by QASs for 62 buildings.
                    We determined whether the QASs were submitting Inspection Reports in a
                    timely manner. We did not evaluate the quality of the QASs’ inspections and
                    audits. We interviewed contractor support personnel to determine how they
                    process Inspection Reports from the QASs. We also assessed the disposition
                    of 45 deduction letters submitted to contractors during the period February
                    2005 to August 2005 to determine whether the Contract Section was
                    processing deductions against contractors for violations of contract
                    requirements.

                    To analyze the timeliness of contract guard payments, we visited or
                    interviewed six contract guard companies that had contracts with NCR or
                    other FPS regions. We visited ICE’s DFC in Dallas, Texas, which handles all
                    the accounts payables for FPS. We obtained a listing of paid invoices from
                    October 1, 2004, through November 21, 2005. We judgmentally selected a
                    sample of 26 payment transactions, and obtained payment files and examined
                    invoices, FY 2005 payment logs, and file correspondence. We interviewed
                    the DFC Director and the Supervisory Accountant for Commercial Payments.

                    Other ICE personnel interviewed included the Director, Office of Procurement
                    and a Senior Procurement Analyst within the Policy and Oversight Branch.
                    We obtained “After-the Fact” reviews conducted by ICE Office of
                    Procurement on three Region 11 procurement actions. We also obtained a
                    copy of ICE’s procurement review process as documented in
                    ICECAP 0503.02.11. Finally, we obtained a listing of congressional requests
                    from the Office of Legislative Affairs concerning FPS from October 1, 2004,
                    until January 27, 2006.

                    We conducted interviews with FPS Headquarters officials, FPS Region 3
                    (Philadelphia) representatives, FPS NCR officials, Personnel Security



                               Federal Protective Service Needs To Improve its Oversight of the
                                                Contract Guard Program

                                                        Page 26
Appendix A
Purpose, Scope, and Methodology



                    Specialists, Contract Specialists, Area Commanders, QASs, and FPS’s
                    Consolidated Contracting Group. In conjunction with this review, we sent a
                    questionnaire to NCR Contract Section personnel on the Region’s contract
                    monitoring process, concerning the proposed deduction process.

                    We reviewed prior reports from FPS, GSA OIG, and Congressional Research
                    Service on contract guards and the contract guard program. We reviewed
                    contracts, modifications, statements of work, and related documentation for
                    the contract guard program.

                    We conducted fieldwork between November 2005 and February 2006 under
                    the authority of the Inspector General Act of 1978, as amended, and according
                    to generally accepted government auditing standards. The cooperation and
                    courtesies extended to our audit team by FPS were appreciated.




                               Federal Protective Service Needs To Improve its Oversight of the
                                                Contract Guard Program

                                                        Page 27
Appendix B
Management’s Response to the Draft Report




                               Federal Protective Service Needs To Improve its Oversight of the
                                                Contract Guard Program

                                                        Page 28
Appendix B
Management’s Response to the Draft Report




                               Federal Protective Service Needs To Improve its Oversight of the
                                                Contract Guard Program

                                                        Page 29
Appendix B
Management’s Response to the Draft Report




                               Federal Protective Service Needs To Improve its Oversight of the
                                                Contract Guard Program

                                                        Page 30
Appendix B
Management’s Response to the Draft Report




                               Federal Protective Service Needs To Improve its Oversight of the
                                                Contract Guard Program

                                                        Page 31
Appendix B
Management’s Response to the Draft Report




                               Federal Protective Service Needs To Improve its Oversight of the
                                                Contract Guard Program

                                                        Page 32
     Appendix C
     Contract Guard Certification Requirements




               Certifications                                                       Expires after
         1     Background Investigation                                                2 years
         2     Contractor Provided Basic Training                                    Given once
         3     Contractor Provided Refresher Training                                  2 years
         4     CPR Training and Certification                                          1 year
         5     Domestic Violence Certification                                         1 year
         6     FPS Provided Orientation Training                                     100 years15
         7     Contractor Certification of Firearms Training                          100 years
         8     Firearms Qualification                                                  1 year
         9     Annual Weapons Re-Qualification                                         1 year
         10    Proof of Education                                                     100 years
         11    First Aid Certification                                                 3 years
         12    Medical Certification (SF 78)                                           2 years
         13    Mandatory Drug Screening Certification                                 100 years
               Initial and Final (if applicable) Suitability                           2 years
         14    Determination
         15    Work Permit (Form I-9)                                           10 years on average
         16    Written Exam                                                         Given once
         17    State Weapons Permit                                                  100 years
         18    Expandable Baton Certification                                          1 year
         19    Magnetometers/X-Ray Machine Training                                  100 years
         20    Supervisor Training                                                   100 years
                                                                                 100 years unless
                                                                             specified period stated on
         21    Supervisory Experience                                               letter in file
         22    Supervisory Written Exam                                             Given once




15
     One hundred years is used here to represent the guard’s life.




                                            Federal Protective Service Needs To Improve its Oversight of the
                                                             Contract Guard Program

                                                                     Page 33
Appendix D
Summary of OIG Review of Expired Certifications




                                                                          Number        Expiration Date to
                              Certifications                              Expired         Review Date
      1     Background Investigation16                                       5            3 to 740 days
      2     Contractor Provided Basic Training                               0
      3     Contractor Provided Refresher Training                           5              18 to 919 days
      4     CPR Training and Certification                                   3              1 to 153 days
      5     Domestic Violence Certification                                  8               1 to 945 days
      6     FPS Provided Orientation Training                                0
      7     Contractor Certification of Firearms Training                    0
      8     Firearms Qualification                                           0
      9     Annual Weapons Re-Qualification                                  0
      10    Proof of Education                                               0
      11    First Aid Certification                                          0
      12    Medical Certification (SF 78)                                    2              30 to 671 days
      13    Mandatory Drug Screening Certification                           0
            Initial and Final (if applicable) Suitability                    4              27 to 88 days
      14    Determination17
      15    Work Permit (Form I-9)                                           0
      16    Written Exam                                                     0
      17    State Weapons Permit                                             0
      18    Expandable Baton Certification                                   12             3 to 324 days
      19    Magnetometers/X-Ray Machine Training                             0
      20    Supervisor Training                                              0
      21    Supervisory Experience                                           0
      22    Supervisory Written Exam                                         0

            Total                                                            39




16
   According to a NCR Personnel Security Specialist, background checks differ from suitability determinations in that
they are limited to regional (District of Columbia, Maryland, and Virginia) police checks.
17
   Suitability determination involves undergoing several computerized background checks, including those administered
by the U.S. Citizenship and Immigration Services, the National Crime Information Center, and the Federal Bureau of
Investigation.




                                       Federal Protective Service Needs To Improve its Oversight of the
                                                        Contract Guard Program

                                                                Page 34
Appendix E
Major Contributors to this Report




                      Timothy Crowe, Director, Philadelphia Field Office
                      Dennis Deely, Supervisory Auditor, Philadelphia Field Office
                      Richard Kotecki, Auditor, Philadelphia Field Office
                      Kevin Donahue, Auditor-in-Charge, Philadelphia Field Office
                      Robert Ferrara, Auditor, Philadelphia Field Office
                      Barry Bruner, Auditor, Philadelphia Field Office
                      Katherine McPherson, Auditor, Philadelphia Field Office
                      Christine Haynes, Referencer




                                    Federal Protective Service Needs To Improve its Oversight of the
                                                     Contract Guard Program

                                                             Page 35
Appendix F
Report Distribution




                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      Chief, Security Officer
                      Chief Privacy Officer
                      Director, GAO/OIG Liaison Office
                      DHS OIG Liaison, ICE
                      DHS OIG Liaison, CIS


                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                                 Federal Protective Service Needs To Improve its Oversight of the
                                                  Contract Guard Program

                                                          Page 36
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Office of Inspector General/MAIL
STOP 2600, Attention: Office of Investigations - Hotline, 245 Murray Drive, SW,
Building 410, Washington, DC 20528, fax the complaint to (202) 254-4292; or email
DHSOIGHOTLINE@dhs.gov. The OIG seeks to protect the identity of each writer
and caller.
